~

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of Amicus Curiae Commonwealth of
Kentucky in Support of Petitioners in 20-1530, State of
West Virginia, et al. v. U.S. Environmental Protection
Agency and Michael Regan, Administrator of the U.S.
Environmental Protection Agency, was sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day service and e-mail service to
the following parties listed below, this 3rd day of June,
2021:
Lindsay Sara See
Office of the West Virginia Attorney General
1900 Kanawha Blvd E, Bldg 1 Rm 26E
Charleston, WV 25305
(304) 558-2021
lindsay .s.see@wvago.gov

Counsel for Petitioners
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for U.S. Environmental Protection Agency, et
al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02

I Franklin Square
I 1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

I Washington, DC 20005

Misha Tseytlin
Troutman Pepper Hamilton Sanders LLP
227 W. Monroe St.
Suite 3900
Chicago, IL 60606
(608) 999-1240
misha.tseytlin@troutman.com

Counsel for National Mining Association
Steven Chiajon Wu
New York Office of the Attorney General
28 Liberty Street
New York, NY 10005
(212) 416-6312
steven. wu@ag.ny.gov

Counsel for State of New York
Daniel Cameron
Attorney General of Kentucky
S. Chad Meredith
Solicitor General
Counsel of Record
Barry L. Dunn
Deputy Attorney General
Office of the Kentucky Attorney General
700 Capital Ave., Suite 118
Frankfort, KY 40601
(502) 696-5300
Chad.Meredith@ky.gov

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 3, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

£/3/,b,

~·

Date:

Notary Public
[seal]

-

